No. 19-3043(UNA)

In The
SUPREME COURT OF THE UNITED STATES
JEAN DUFORT BAPTICHON,
Petitioner,
V.
The United States and the Republican National Party
Respondents
AFFIDAVIT OF SERVICE
STATE OF NEW YORK)
) ss.:
COUNTY OF QUEENS)
I, Ernst Damour, being duly sworn, depose and say:
I am not a party to the action, am over 18 years of age and reside in New York. In
compliance with 28 U. S. C. § 1746, on the 11th day of September 2020,
I served 1 copy of the within: corrected “Writ of Certiorari and Appendices dated
August 20th 2020 together with a Motion for Leave to Proceed in Forma Pauperis and
Certificate of Compliance”
ON:

The Solicitor General of the United States.
Room 5616 Department of Justice
950 Pennsylvania Avenue N. W.
Washington, D. C, 20530-0001
Defendant

The Republican National Party
310 First Street, S.E.
Washington, D.C. 20003
Defendant

by depositing a true copy thereof enclosed in a post-paid wrapper, in an official
depository under the exclusive care and custody of the U.S. Postal Service within New
York State, via priority mail, addressed to each-of tjie afeqve at the last known address
*'N|
as set forth after each name.
Ern
Sworn to before me on this
11th day of September 2020
KEDNER PSTIVEN
NOTARY PUBLIC STATE OF NEWYORK
. QUEENS COUNTY
LIC.#01ST5G75230 >
<
70MM. EXP.

f

amour

s/ C,
/

\

N-W' v. f

RECEIVED
sep

;

ism

OFFICE OF THE CLERK
SUPREME COURT. U.S.

No. 19-3043(UNA)

In The
SUPREME COURT OF THE UNITED STATES
JEAN DUFORT BAPTICHON,
Petitioner,
V.

The United States and the Republican National Party
Respondents
AFFIDAVIT OF SERVICE
STATE OF NEW YORK)
) ss.:
COUNTY OF QUEENS)
I, Ernst Damour, being duly sworn, depose and say:
I am not a party to the action, am over 18 years of age and reside in New York. In
compliance with 28 U. S. C. § 1746, on the 25th day of August 2020,
I served 3 copies of the within: “Writ of Certiorari and Appendices dated August 20th
2020 together with a Motion for Leave to Proceed in Forma Pauperis and Certificate of
Compliance”
ON:

The Solicitor General of the United States.
Room 5616 Department of Justice
950 Pennsylvania Avenue N. W.
Washington, D. C, 20530-0001
Defendant

The Republican National Party
310 First Street, S.E.
Washington, D.C. 20003
Defendant

by depositing a true copy thereof enclosed in a post-paid wrapper, in an official
depository under the exclusive care and custody of the U.S. Postal Service within New
of the above at the last known address
York State, via priority mail, addressed to
as set forth after each name.
J
Ernst Damour
Sworn to before me on this
25th day of July 2020

received

i!:
!

KEDNER P STIVEN
NOTARY PUBLICJSTATE OF NEW YORK
QUEENS COUNTY
LIC. #01 ST
CQMM.-EXP.-a 73
/

/

AUG 3 1 2020

